                                       WHITE PAPER



What America Wants and Needs
from the Postal Service
Summary of Focus Group Research



February 18, 2014




                                  Report Number: RARC-WP-14-009
                                                                         EXECUTIVE SUMMARY


                    What America Wants and Needs
                       from the Postal Service
The U.S. Postal Service faces tough decisions about its future, including how it will
continue to meet America’s changing communications needs and how it will return to
financial stability. To make such decisions, the Postal Service must know the products
and services its customers demand of it. While it is important to understand what
Americans want from the Postal Service, it is equally important to gain a better
perspective on what they absolutely need.

Last year, the Postal Service Office of Inspector General (OIG) released a paper
summarizing the results of a national web-based survey aimed at better understanding
how Americans view the Postal Service now, and its role in the future. 1 To gain further
insight into the results of this survey, and explore the types of compromises the public is
willing to accept, the OIG again partnered with market research firm InfoTrends to
conduct a series of focus groups across the country.

The focus groups provided new, qualitative insight by gathering opinions from 101
individuals from 67 different ZIP Codes in a variety of rural, suburban, and urban areas.
The demographics of the focus group participants were generally consistent with the
rest of the country in categories such as age, gender, access to the Internet, and
population density. Although the results cannot be generalized, they shed light on what
a sample population of Americans want and need from the Postal Service.

The following report, What America Wants and Needs from the Postal Service,
describes the results of the focus group discussions.

Key Findings
Several key trends emerged from analyzing the focus group results:

          Funding: Consistent with our previous survey findings, nearly 70 percent of
           participants did not realize the Postal Service is self-funded, incorrectly believing
           that it receives tax dollars for operations. Upon learning it is funded by its own
1
 U.S. Postal Service Office of Inspector General, What America Wants from the Postal Service: A Survey of Internet-
Connected Americans, RARC-WP-13-009, May 21, 2013.



U.S. Postal Service Office of Inspector General                                                     February 18, 2014
                                                         i
RARC-WP-14-009                                             What America Wants and Needs from the Postal Service



           revenue, participants lowered their service level expectations. For Americans to
           make informed decisions about what they expect from the Postal Service, they
           must understand its funding structure.

          Physical Locations: Most participants valued the Postal Service as an institution.
           Participants in rural areas considered a Post Office a valued community asset,
           whereas urban participants placed a higher importance on the convenience of
           accessing postal services. Rural participants noted security concerns with
           trusting their mail with nonpostal employees in nonpostal retail locations, such as
           grocery stores. This often prevailed over the convenience of co-location.

          Accessibility: Many participants felt strongly that the existing hours offered at
           their local Post Office should not be reduced, and focus group participants who
           worked suggested shifting or expanding the current hours to accommodate their
           work schedules. Several participants were concerned that reducing their Post
           Office’s current hours could result in increased wait times, their largest source of
           dissatisfaction with the Postal Service as reported in a pre-focus group survey.

          Delivery: Participants were most likely to compromise on residential delivery
           location and the number of delivery days.

                o Location: Security concerns were the primary driver of opinions on
                  delivery location for those in rural areas, whereas convenience motivated
                  those in suburban and urban areas. Participants were generally willing to
                  move to centralized cluster boxes if the boxes were relatively convenient,
                  saved the Postal Service money, and ensured security.

                o Days: Most participants supported a reduction in the number of delivery
                  days, although there was a lack of consensus on the number of delivery
                  days needed or which days to eliminate. Those who worked preferred to
                  receive mail on Saturdays.

          Digital Services: Participants found it difficult to imagine digital services and
           accordingly did not think it appropriate for the Postal Service to provide them.

          Governmental Services and Other New Products: Similar to the previous survey
           results, some participants saw the utility of offering governmental or other new
           products or services at Post Offices. However, the participants revealed that they
           thought others, rather than themselves, would actually use the services.

          Postal Service’s Role in the Future: More than 98 percent of focus group
           participants stated they would be negatively affected if the Postal Service ceased
           to exist, but participants could not articulate how their lives would actually be
           affected.

This research sheds light on a sample of Americans’ views of the products and services
the Postal Service offers now and could provide in the future. Additional research on
specific new products and services could provide additional, more complete, insights.

U.S. Postal Service Office of Inspector General                                               February 18, 2014
                                                  ii
                           Analysis




                                  February 2014

What America Wants and Needs from the
                        Postal Service
                Summary of Focus Group Research
ANALYSIS                 What America Wants and Needs from the Postal Service


                         Table of Contents
                         Introduction................................................................................................................................ 2

                         Research Background ................................................................................................................ 2

                            Objective ................................................................................................................................. 2

                            Scope ....................................................................................................................................... 2

                            Methodology ........................................................................................................................... 5

                         Americans' Expectations of the Postal Service ......................................................................... 6

                            Expectations Prior to Being Informed How the Postal Service Is Funded ......................... 6

                            Expectations after Being Informed How the Postal Service Is Funded .............................. 7

                         Perceived Value of a Post Office in the Community ................................................................. 8

                            Bringing Value to the Community......................................................................................... 8

                            Co-location of Postal Services in Establishments Americans Frequent.............................. 9

                         Wants versus Needs Relative to Postal Services ....................................................................... 10

                            Right-Sizing Delivery Days for Letter Mail ........................................................................... 11

                            Mail Delivery Locations ......................................................................................................... 13

                            Accessibility of Post Offices ................................................................................................... 15

                         Opportunities to Offer New Services ......................................................................................... 16

                            Interest in Access to Governmental and e-Government Services at the Post Office .......... 16

                            Electronic Notification of Inbound Mail ............................................................................... 17

                            Providing Americans with a Hybrid Mail Approach or a Digital Mailbox .......................... 18

                            Consumer-Generated Suggestions for New Services at the Post Office .............................. 19

                         What if the Postal Service Did Not Exist in Five Years ............................................................ 19

                         Making Tradeoffs ....................................................................................................................... 20

                         Conclusion .................................................................................................................................. 23



                         List of Figures
                         Figure 1: Focus Group Locations ............................................................................................... 3
                         Figure 2: Type of Community .................................................................................................... 3
                         Figure 3: Participant Demographics ......................................................................................... 4
                         Figure 4: Technology Usage....................................................................................................... 4
                         Figure 5: Satisfaction with Postal Service Attributes ............................................................... 11


© InfoTrends 2014 in collaboration with the USPS OIG                                                                                                                          1
ANALYSIS                 What America Wants and Needs from the Postal Service


                         Introduction
                         In May of 2013, InfoTrends and the U.S. Postal Service’s Office of Inspector General
                         (OIG) published a white paper entitled What America Wants from the Postal Service.
                         The paper summarized findings of a pilot survey of 5,000 Americans regarding their
                         perceptions of the U.S. Postal Service (Postal Service) and the role that it plays in their
                         lives. While this research was highly insightful and a valuable undertaking, the
                         population was limited to participants with Internet access and those who self-selected to
                         take a web-based survey. To build on the findings from the initial research and to
                         generate a more dynamic discussion about the Postal Service, the OIG commissioned
                         InfoTrends to collaboratively design, execute, analyze, and report on the findings from
                         focus groups, which InfoTrends moderated and OIG staff also attended in person. 2

                         These focus groups took place in rural, suburban, and urban locations across the country
                         and included a group of participants that generally align with U.S. demographics in terms
                         of access to the Internet, age, and gender. Lack of Internet access was a key area of
                         interest due to the fact that this group of respondents was not reachable via web survey.

                         This paper summarizes the most valuable research findings from these focus groups.
                         Although the results cannot be generalized, they shed light on what a sample population
                         of Americans want and need from the Postal Service.

                         Research Background
                         While it is important to understand what Americans want from the Postal Service, it is
                         equally important to gain a better perspective on what they absolutely need. The Postal
                         Service is in a serious financial position and is faced with making important decisions
                         regarding how to prioritize spending and where it should cut costs. This section outlines
                         the research objective, scope, and methodology of this project.

                         Objective
                         The intent of this stage of research was to place an emphasis on understanding how
                         Americans rely on the Postal Service today, where they are willing to make concessions,
                         and how they expect to interact with and use its services in the future.

                         Scope
                         Between August and November of 2013, InfoTrends conducted 10 focus groups with a
                         total of 101 Americans aged 19 to 92, representing 67 different ZIP Codes from 11 states. 3
                         The focus groups took place across five regions of the country, including nine different
                         states. In each region, an urban/suburban and rural location were selected based on
                         factors including recruitment potential and demographics.




                         2The OIG’s research initiatives are objective and independent from the Postal Service and other stakeholders.
                         3Participants in the ten focus groups represented eleven states because several participants attended the focus
                         groups from neighboring states.


© InfoTrends 2014 in collaboration with the USPS OIG                                                                                       2
ANALYSIS                 What America Wants and Needs from the Postal Service


                         Figure 1 shows the locations we visited, along with a picture of each focus group.

                                                         Figure 1: Focus Group Locations




                         For the purpose of this report, rural area is defined as a community of fewer than 5,500
                         people. 4 Suburban area is defined as a community of 5,500-49,999 people, and urban
                         area indicates a community of 50,000 or more people.

                                                           Figure 2: Type of Community




                         4While the U.S. Census defines a rural area as fewer than 2,500 people, focus groups in towns with fewer than
                         5,500 people were clearly rural when compared to suburban and urban groups.


© InfoTrends 2014 in collaboration with the USPS OIG                                                                                     3
ANALYSIS                 What America Wants and Needs from the Postal Service


                         The mix of rural, suburban, and urban participants was intentional, giving a good balance
                         of perspective across these geographies. The groups were also designed so age and gender
                         would generally align with the 2010 U.S. Census. Figure 3 shows the demographic mix of
                         the focus group participants by age, gender, and income.

                                                        Figure 3: Participant Demographics




                         This research did not specifically control for income. In our initial web-based research of
                         5,000 Americans, income of respondents was an occasional indicator of response;
                         however, trends were apparent more often when linked to the person’s type of
                         community or age. Along a similar line, we did not see significant variations based on the
                         ethnicity of the respondents and did not control for that demographic variation.

                         One important goal for this research was to recruit 20% of the focus group participants
                         from households that did not have Internet access—a statistic that closely aligns with the
                         2010 U.S. Census findings regarding total Internet users. 5 We also gathered insight on
                         participants’ self-reported approach to adopting new technology, and smartphone
                         ownership. These statistics are reflected in Figure 4.

                                                              Figure 4: Technology Usage




                         5   U.S. Census Bureau, “Table 1156. Household Internet Usage In and Outside of the Home by State: 2010.”


© InfoTrends 2014 in collaboration with the USPS OIG                                                                                 4
ANALYSIS                 What America Wants and Needs from the Postal Service


                         Methodology
                         Focus group participants were recruited and screened by third-parties via phone
                         interviews. Guidelines for participation included:

                             •   No affiliation with the Postal Service (within immediate family)

                             •   Willingness to be recorded (audio and video)

                             •   Alignment with demographic criteria (mix by age and gender in each group)

                             •   No two participants could come from the same household

                             •   A portion 0f participants should lack Internet access at home.



                         Upon arrival at the focus group locations, participants completed a pre-focus group
                         survey. Additional insights gained from this survey included:


                             •   Approach to technology adoption (early, mainstream, late)

                             •   Understanding of how the Postal Service is funded

                             •   Where participants receive their mail

                             •   Frequency of checking the mail

                             •   Level of satisfaction with elements of the Postal Service

                             •   Consent to use the audio and video in presentations related to the research.

                         InfoTrends analysts moderated each of the focus groups, with representatives from the
                         OIG present for observational purposes. Moderators followed a discussion guide, which
                         InfoTrends and the OIG prepared jointly, that led to conversations about key areas of
                         interest for the OIG. The suburban and urban focus groups were conducted in focus
                         group facilities with one-way mirrors, while the rural focus groups took place in a variety
                         of locations, including an inn, a credit union, a mission gymnasium, a motel, and a
                         community center. In these rural settings, the presence of the OIG representatives was
                         apparent to participants; however, interactions were minimized and the OIG
                         representatives’ affiliation with the Postal Service was not disclosed. Each focus group
                         included 8 to 11 participants and lasted for two hours. Participants were given a financial
                         incentive of $60 to $100 in return for their active contribution throughout each session.

                         As the last element of each focus group discussion, participants were asked to give a brief
                         video statement about tradeoffs they would be willing to make to retain service levels in
                         other parts of the Postal Service. Transcriptions of some of these statements can be found
                         in the section entitled “Making Tradeoffs.”



© InfoTrends 2014 in collaboration with the USPS OIG                                                                   5
  ANALYSIS                 What America Wants and Needs from the Postal Service


                           Americans’ Expectations of the Postal Service
                           The research published in May of 2013 revealed that many Americans (77%) are not
                           aware that the Postal Service is self-funded, receiving no tax dollars for its ongoing
                           operations. We used the focus groups as an opportunity to test whether Americans’
                           expectations of the Postal Service’s role would change after being educated about this fact
                           and, if so, how those expectations might change.

                           First, we asked participants about their current perceptions of the Postal Service as it
                           relates to the following questions:

                                1) Is the Postal Service a public service or a business?

                                2) Does the Postal Service have a responsibility to provide mail to every American?

Every group was            After discussing these questions with participants, we explained that the Postal Service
surprised to learn         was self-funded—a revelation that was met with surprise within every group. 6 It was at
that the Postal            this point that we asked the second question again, but with a twist. The question was
Service is self-
                           posed:
funded.
                                “Does the Postal Service have a responsibility to provide mail to every American, even
                                if it is not profitable to do so?”

                           This gave participants a chance to evaluate what it means for the Postal Service to be self-
                           funded and weigh that against their service expectations. The following sub-sections
                           review each line of questioning and summarize how the participants responded.

                           Expectations Prior to Being Informed How the Postal Service Is Funded
                           When participants were asked whether the Postal Service was a business or a public
                           service, responses were mixed; however, when given the choice to say both, the majority
                           of participants chose this option, feeling that the Postal Service was a hybrid of the two.
                           For instance, Kathy from Boston, MA, described a change of heart as the conversation
                           progressed:

                                                “It makes me wonder about my first response saying it was a business,
                                                because that part of me also feels every American should be able to
                                                receive mail, so when I think of it in that terms then I think it must be a
                                                public service that is run like a business.”


                           Many focus group participants shared Kathy’s perspective of it being a public service that
                           operates as a business. While others took a harder line on whether the Postal Service
                           should serve as a public service or a business, we found that—regardless of a participant’s
                           response to this first question—most were united with their response to the follow-up
                           question in that they felt that the Postal Service has an obligation to provide mail services
                           to all Americans. Exceptions to this sentiment included that the Postal Service should not


                           6 The Postal Service receives marginal taxpayer dollars for reimbursements for certain services it is required by
                           law to provide.


  © InfoTrends 2014 in collaboration with the USPS OIG                                                                                         6
 ANALYSIS                 What America Wants and Needs from the Postal Service


                          be required to track down transient people and that the obligation to deliver mail does
                          not necessarily mean door-to-door delivery for every American.

                          Expectations after Being Informed How the Postal Service Is Funded
                          Given that a pre-focus group questionnaire revealed that 69% of participants thought the
                          Postal Service received tax dollars to fund its ongoing operations, we were curious to see
                          how the discussion would shift after informing them that it was self-funded. Most people
                          continued to expect that the Postal Service should deliver mail to all Americans, but the
                          tone of the discussion began to change. The shift was to one of nostalgia, their connection
                          to the Postal Service, and a desire to see it continue to provide services because of its
                          importance to the American people. The tone essentially changed to a recognition that,
                          without tax dollars supporting its ongoing operations, these citizens had less authority to
                          make demands about maintaining current levels of service and were more sympathetic to
                          the Postal Service’s struggles. A few comments from our discussion include:

                                            “My sister and I have been sending each other the same postcard for 37
                                            years…so I’m very nostalgic about [the Postal Service], but at the same
                                            time…if we want to be nostalgic about something we need to want to
                                            preserve it by streamlining it.” —Susan from Camilla, GA

                                            “I think there definitely should be limits, and it should be related to
                                            cost of delivery. [For] someone living in the middle of Alaska, it would
                                            cost an awful lot of money to deliver a letter there compared to a major
Upon clarification                          city.” —John from Huntington Beach, CA
of the Postal
                                            “I think that people don’t understand that the Postal Service is totally
Service being self-                         funded on its own…I just don’t think that’s clear because I didn’t know
funded, almost                              that…that skews the way you think about it. It changes expectations of
every focus group                           the Postal Service.” —Denise from Bethel, ME
participant was
willing to give up        As a self-funded entity, the common thought was that the Postal Service must operate like
delivery days.            a business; it must find a way to be profitable. Consequently, similar to the comments
                          made by Susan, John, and Denise, the shift in demeanor led almost all of our participants
                          to be more willing to receive reduced service levels to ensure that the Postal Service could
                          remain solvent.

                          For instance, Howard from Disney, OK, thought that reducing delivery days is a
                          concession that Americans should consider making.

                                            “I think the Postal Service should deliver mail to every American that
                                            has an address that wants mail. At the same time, because we’ve gotten
                                            used to getting mail six days a week, doesn’t necessarily mean we have
                                            to still get six days a week.”


                          Darren from Los Angeles, CA, agreed.




 © InfoTrends 2014 in collaboration with the USPS OIG                                                                    7
 ANALYSIS                 What America Wants and Needs from the Postal Service


                                            “…I would rather see the Postal Service stop delivering every day of the
                                            week than go out of business. I expect the Postal Service to provide a
                                            service and break even.”



                          Upon clarification of the Postal Service being self-funded, almost every focus group
                          participant shared this sentiment and was willing to give up delivery days, as we will
                          discuss in more detail later in this report. Educating citizens on the self-funded nature of
                          the Postal Service and the challenges it faces could help garner citizens’ support for cost-
                          saving initiatives.

                          Perceived Value of a Post Office in the Community
                          After establishing initial insight into participants’ views on the role of the Postal Service
                          and explaining how the Postal Service is funded, the discussion shifted to the perceived
                          value of having a post office in the local community.

                          Bringing Value to the Community
                          In addition to the mail services it provides, Americans value their local post office and
                          view it as an important asset to the community. Having a post office gives small towns a
                          sense of identity and independence.

                                            “It’s very important… we have a school, we have stores, we have a fire
                                            department; [having a] post office just makes us a little, big town.”
                                            —Julia from McKittrick, CA


                                            “I like that we have these services in my own town… Not that I get the
                                            warm fuzzy about the post office, but I like that we’re self-sufficient.”
                                            —Mary from Lake Forest, CA
Americans view
the Postal Service
                          Rural focus group participants were notably more sentimental about the value of the post
as valuable to
society, with the         office to their community, while people in the suburban and urban focus groups were less
physical post office      likely to feel a particular connection to their local post office. This may be due, in part, to
being an important        the reality that cities often have multiple post offices within close proximity, so the use of
community
                          one as a community hub is diminished. Americans in suburban and urban areas may be
landmark in rural
towns more so             glad to have a post office nearby as a matter of convenience, but generally seemed to place
than suburban and         little communal value on them. Even so, suburban and urban dwellers often recognized
urban locations.          that it had more value to their friends and family living in rural settings.

                          Among those who related to the community aspect of their local post office, focus group
                          participants saw it as an opportunity for a chance encounter with friends, to meet new
                          people, and to interact with the postal clerks.

                                            “I think it’s important to be able to go in and see the same friendly
                                            faces, have a chit-chat, and do my business…Yes, I could take them
                                            someplace else…but it’s kind of a stopping place in town.”
                                            —Gayle from Stevensville, MT




 © InfoTrends 2014 in collaboration with the USPS OIG                                                                       8
ANALYSIS                 What America Wants and Needs from the Postal Service


                                            “As someone who goes away for half the year and comes back, I always
                                            see people I know there and catch up with them. I don’t know if most
                                            teenagers feel that way, but I enjoy seeing people there.”
                                            — Molly from Bethel, ME


                         We also tested the value of the post office in the community by asking how Americans
                         would respond if their local post office were closed. This caused concern for many
                         participants, most often those from rural areas. These concerns included decreased access
                         to mail for Post Office (P.O.) Box users, a loss of a central community meeting place, and
                         a general inconvenience. Urban dwellers cited that they would be less affected by a
                         closure because of the close proximity of other post offices.

                         Co-location of Postal Services in Establishments Americans Frequent
                         An alternative approach to completely removing access to postal services from a
                         community is to co-locate a post office, or basic postal services, within other local
                         establishments, such as a grocery store or pharmacy. Participants responded positively to
                         this concept and cited convenience as an attractive benefit. Nevertheless, most rural
                         participants were still unwilling to give up their standalone post office and, instead,
                         preferred to see this co-location approach as a supplement to existing services.

                         Looking back to our previous web-based study of 5,000 Americans revealed that 32% of
                         rural respondents (and 19% of total respondents) would use postal services less often if
                         their local post office closed and moved inside a nearby retail location. Alternatively, 12%
                         of rural respondents (and 20% of total respondents) cited that they would use the Postal
                         Service more often if it were co-located within a retail location.

                         In the focus groups, we expanded this discussion to also understand the importance of
                         staffing these retail facilities with postal employees. A large majority of respondents
                         expected there to be a trained postal clerk at a co-located facility. Take Mike from
                         Tallahassee, FL:

                                            “There is a certain sanctity that goes with the mail…I don’t want the
                                            same person who is checking me out for $7 an hour handling my mail.
                                            You depend on that bill getting where it needs to go, and I think you
                                            need a little bit more dependability there.”


                         Tamika from Kansas City, MO, held a similar view.

                                            “Something tells me I would rather have a postal employee, just like
                                            when you go in and get your flu shot you hope it’s not a [regular]
                                            Walgreens employee.”



                         As exhibited in these comments by Mike and Tamika, there is a lack of trust in people
                         other than postal clerks managing mail. Some participants felt that the average retail
                         employee might not provide the same level of knowledge or guard mail security as well as
                         a postal employee. Rural participants especially noted security concerns with accessing



© InfoTrends 2014 in collaboration with the USPS OIG                                                                    9
ANALYSIS                 What America Wants and Needs from the Postal Service


                         postal services in nonpostal retail locations, which often prevailed over the convenience
                         co-location afforded.

                         Other participants said they did not necessarily need a postal clerk offering the service as
                         long as the retail associates were well-trained. In response to Tamika’s comment in
                         Kansas City, using the Walgreens example, Mike stated “for me, it doesn’t matter if it’s a
                         Walgreens employee, as long as they know how to weigh [a package]…” Still, other people
                         across the focus groups simply wanted a promise that these co-located postal services
                         would not be exclusively self-service.

                         Sunny from Stevensville, MT, offered the following perspective:

                                          “I think the key to that is it has to be manned. If it was a kiosk and there
                                          were no people there, you’d walk in and you’d have a problem that there
                                          is nobody to help you with. I hate those self-service places...if no people
                                          are there, it’s not a good service.”


                         Ultimately, this group of Americans viewed the Postal Service as valuable to society, with
                         the physical post office being an important community landmark in rural towns more so
                         than suburban and urban locations. Additionally, the Americans we spoke with were
                         generally interested in the opportunity to access postal services in alternative locations to
                         their post office, as long as these locations were staffed with knowledgeable, well-trained
                         employees who could protect the security of the mail.

                         Wants versus Needs Relative to Postal Services
                         A core objective of the focus group research was to understand Americans’ fundamental
                         postal needs, as opposed to just the services that they want. To gain a better
                         understanding of their underlying needs, we asked focus group participants to think
                         about where they would be willing to compromise—or pay a fee to maintain service
                         levels—if the Postal Service implemented future changes or reduced their offerings.

                         The discussion centered on the following areas:

                             •   Accessibility of postal services (e.g., locations, hours of operation, and wait times)
                             •   Mail delivery locations (e.g., door slot, curbside/driveway, cluster box, P.O. Box)

                             •   Frequency of mail delivery (e.g., six days, five days, three days).
                         According to the pre-focus group survey, participant satisfaction levels with the Postal
                         Service were overwhelmingly positive.




© InfoTrends 2014 in collaboration with the USPS OIG                                                                      10
  ANALYSIS                 What America Wants and Needs from the Postal Service



                           As shown in Figure 5, the areas where participants expressed the lowest levels of
                           satisfaction were in post office hours and wait times.

                                              Figure 5: Satisfaction with Postal Service Attributes




                           Keeping the pre-focus group survey results in mind, the focus group discussion showed
…people were               that people were more willing to accept lower levels of service in areas where they were
more willing to            most satisfied. For example, participants were generally more willing to entertain a
accept lower levels
                           discussion about moving from a curbside mailbox to a cluster box or a reduction in
of service in areas
where they were            delivery days for letter mail than to be flexible with post office hours and wait times.
most satisfied.
                           Sentiments captured in last year’s web-based survey of 5,000 Americans were generally
                           consistent with feedback from the focus group participants. For instance, last year’s web-
                           based research explored survey respondents’ views on potential cost-reduction efforts
                           and received the strongest opposition to the idea of reducing the hours of service, while
                           only 38% of these respondents were opposed to reducing the number of delivery days to
                           five days a week, as long as they kept Saturday as a delivery day. The added value of the
                           focus group format was the opportunity to further probe responses, as we did for
                           reducing delivery days.

                           Right-Sizing Delivery Days for Letter Mail
                           The topic of reducing the number of days the Postal Service delivers mail has made
                           headlines in recent years, with the Postal Service pushing to eliminate Saturday delivery
                           of letter mail—a measure that they estimate would save them $2 billion per year. 7



                           7In 2013, the Postal Service announced a proposal that would end Saturday mail delivery but retain Saturday
                           package delivery. The Postal Service estimated the cost savings for this proposal would be $2 billion annually. It
                           did not send the proposal to the Postal Regulatory Commission, which had estimated lower cost savings of


  © InfoTrends 2014 in collaboration with the USPS OIG                                                                                          11
   ANALYSIS                 What America Wants and Needs from the Postal Service


                            Vocal opposition to this approach and a lack of legislative change have prevented the
                            Postal Service from making any changes to delivery frequency to date; however, we
                            wanted to explore Americans' perspectives on delivery frequency.

                            Focus group participants seem to indicate that reducing delivery days is an area where
                            Americans are most willing to accept change in the level of services they are receiving.
                            When we asked how many delivery days would be sufficient, only two focus group
                            participants cited a need for six days. We further probed how many delivery days they
                            needed, rather than just preferred, and most participants said they would actually require
                            even fewer than five days per week. Some of their comments along these lines included:
Focus group
                                                 “If a person wants to get mail to you sooner, they can send it priority
participants                                     mail...” —Dave from Spokane, WA
indicated that
reducing delivery
days is an area
                                                 “Honestly, since I’ve retired, I don’t generate much mail.”
where they were                                  —Barbara from Derby, CA
most willing to
accept change in
the level of services
                                                 “It used to be five days up through my childhood. Telephone, and of
they were
                                                 course e-mail, wasn’t used as much. Now those are used hourly by most
receiving.                                       folks, and the number of First Class material that comes across the mail
                                                 is not as frequent.” —John from Kansas City, KS


                            Those that still viewed a need for six delivery days included older focus group participants
                            and a small business owner. 8 Perspectives from those participants included:

                                                 “I really like Saturday delivery and the ability to mail, because I
                                                 certainly do my bills via the mail. If I space it out and don’t time it right,
                                                 it’s going to make a difference if I lose two days a week or just one.”
                                                 —Elloie from Stevensville, MT

                                                 “Obviously the post office is being paid a premium to get mail or a
                                                 package delivered the next day so I think that should be delivered six
                                                 days a week.” —Jim from Watertown, MA



                            Chris from Taft, CA, was willing to reduce to five day delivery, but that would be her bare
                            minimum as a business owner.

                                                 “Mail’s pretty important. We run a business, we depend on the mail. We
                                                 run it from our property…and that is pretty essential to our business.”




                            If delivery days were to be eliminated, there was a lack of consensus on which days made
                            the most sense to remove. Some participants said they would be willing to forego
                            Saturday delivery, but others suggested that Saturdays are a preferred day because they

                            previous Postal Service proposals. U.S. Postal Service Fact Sheet, available at
                            http://about.usps.com/news/national-releases/2013/fiveday-factsheet.pdf.
                            8 While the core focus of this study was personal mail, small business owners often found it difficult to decouple

                            their postal views for business mail from their personal use.


   © InfoTrends 2014 in collaboration with the USPS OIG                                                                                          12
ANALYSIS                 What America Wants and Needs from the Postal Service


                         are around to retrieve the mail and would prefer to retain Saturday delivery. Doug from
                         Buttonwillow, CA, somewhat sarcastically responded to that by saying that “my mailbox
                         is home every day…I hardly ever take it with me.” His point was that people do not need
                         to be physically present to receive their mail. Therefore, retaining Saturdays solely
                         because that is when many people are home should not be a priority. Additionally, some
                         participants brought up weekends preceding a Monday holiday, worrying they would not
                         receive mail for three days.

                         Regardless of which mail delivery days may be eliminated, it is important to note that the
                         vast majority of focus group participants viewed six-day delivery as a luxury that could be
                         reduced if the Postal Service needs to cut costs to remain financial viable.

                         Mail Delivery Locations
                         The Postal Service typically delivers residential mail to door slots, mailboxes located on a
                         porch or at the end of a home’s driveway, cluster mailboxes where all of the boxes for the
                         neighborhood are located centrally, and to P.O. Boxes where mail is delivered to the post
                         office. To reduce delivery costs, the Postal Service is exploring the possibility of requiring
                         all new neighborhoods to shift to centrally located cluster boxes, rather than allowing
                         individual mailboxes at each door/porch or in front of each house. With the focus groups,
                         we wanted to test how strongly Americans felt about continuing to receive mail where it is
                         currently delivered and how open they would be to changes to that delivery location.
                         Moving the delivery location was a polarizing topic. Security played a significant role in
                         the views of participants from rural areas, whereas those in suburban and urban areas
                         seemed to instead focus on convenience.

                         Some rural participants viewed a locked cluster box as appealing, due to mail being stolen
                         from their traditional end-of-driveway mailbox.

                                           “There [are] people in our neighborhood who watch you come and go,
                                           and we’ve had a problem with people using your mail, stealing your
                                           mail.” —Sharon from Camilla, GA



                         During focus group discussions in Grove, OK, participants engaged in a conversation
                         expressing concerns not only about mail theft, but also mailbox vandalism.

                                           “In our area, somebody’s been following our mail carrier. When he puts
                                           mail in the box and he goes on…they take somebody’s mail.”
                                           — Charlotte from Cloud Creek, OK


                                           “That’s the biggest problem with having it out on the road. We’ve had
                                           our mailbox shot with shotguns, bats, everything, so we just built a steel
                                           box around it.” — Arizona from Grove, OK



                         Rural participants were also more supportive of a secure cluster box if it was maintained
                         by the Postal Service, effectively shifting the responsibility of purchasing (and repairing)


© InfoTrends 2014 in collaboration with the USPS OIG                                                                      13
  ANALYSIS                 What America Wants and Needs from the Postal Service


                           the mailboxes away from citizens. On this note, participants who had P.O. Boxes—mostly
                           in rural areas—only had positive feedback about them. They primarily valued the security,
                           convenience, and accessibility.

                           Nonrural residents often cited a preference for home delivery of mail (e.g., curbside, door
                           slot) because of the comfort of being able to see their mailbox from the front door. This
                           preference was notably more focused on “ability to monitor” versus frustration with
                           having to walk or drive further to pick up the mail.

                           Edward from Spokane, WA, spoke to this point:

                                            “I feel comfortable knowing that I can see my mail. I can see who goes
                                            around it. I can see who puts stuff in there.”




                           While suburban and urban participants were more interested in retaining the
                           convenience of their curbside mailbox, there were still participants like Mike from
Moving from a
driveway or                Tallahassee who saw value in the security of a cluster box, noting that “the idea that my
doorstep delivery          mail is under lock and key is not a bad concept.”
to a cluster box was
                           In all geographies, the “convenience” factor was a recurring topic. For those in support of
something that
most participants          the concept of adopting cluster boxes, they said relative distance to their front door was
would support, if          less important than whether or not the cluster box was located on the way home.
the Postal Service         Alternatively, this created concerns that cluster boxes might be a safety issue on busy
needed to cut back.
                           streets, especially if the boxes were placed at the entrance to a neighborhood, or not given
                           ample room for people to pull off of the road to retrieve their mail. Some people thought
                           that congestion at peak commuting times could also create problems.

                           Interestingly, a common counterpoint to this discussion was that centrally locating
                           neighborhood mail could pose security problems because it would be a more attractive
                           target for a would-be thief. This topic became especially sensitive when we discussed the
                           delivery of packages. Some people expected that all packages would still be delivered to
                           their doors, even if their letter mail was delivered to a locked cluster box. This may have
                           been a result of misunderstanding that packages can be securely delivered to cluster
                           boxes. Participants who were already using cluster boxes and receiving packages there did
                           not share these same concerns. To an extent, what we were hearing in this discussion may
                           have been a fear of the unknown.

                           All concerns aside, in the context of the financial challenges that the Postal Service is
                           facing and the need to cut back on components of the service, moving from a driveway or
                           doorstep delivery to a cluster box was something that most participants would support.
                           Others who were adamant about maintaining home delivery were generally willing to pay
                           a fee to receive that service, similar to the subscription model of having a P.O. Box.




  © InfoTrends 2014 in collaboration with the USPS OIG                                                                    14
 ANALYSIS                 What America Wants and Needs from the Postal Service


                          Focus group participants' views on paying for services include:

                                               “You know, everything seems to be reasonably priced at the Post Office,
                                               so I’ll go and say yeah, I’ll pay to keep [door slot delivery] the way it is.”
                                               —John from Huntington Beach, CA


                                                “I could see people who get it delivered to their driveway…why couldn’t
                                               they charge a fee for that? If you have to rent a box...it’s actually better
                                               to get it dropped off at your driveway, even if it’s ten dollars a year.”
                                               —Tom from Albany, ME


                          For people willing to pay an annual fee, the $10 per year that Thomas noted was on the
                          low-end of what people were willing to pay. Some people were willing to pay $100 per
                          year if it meant they could retain home delivery service; however, many participants
                          worried that charging a fee for home delivery would unfairly favor people with the means
                          to pay and not necessarily the people who need home delivery the most.

                          Accessibility of Post Offices
                          Post office locations, hours of operation, and wait times were central to the discussion
                          regarding accessibility. We have already established that Americans are generally
                          satisfied with the locations of their post offices, with suburban and urban dwellers less
                          likely to be upset with a closure in their area due to the availability of alternatives. As
…focus group
participants were         discussed previously, participants were also open to accessing postal services at existing
open to reduced           retail facilities.
hours on certain
                          As for hours of operation, many participants were adamant about at least maintaining
days, as long as the
hours on other            current service levels, partially fueled by the dissatisfaction with the current hours that
days were also            11% of participants noted. James from Tallahassee, FL, suggested that hours of operation
shifted to                could be adjusted to better serve Americans who work traditional hours.
accommodate
citizens who                                   “Time is important. When you work 8 to 5, it is hard to get to the post
needed the post                                office when it closes at 6… maybe have a couple of post offices that
office to be open                              would skew their [hours].”

early, late, or
during lunch.
                          Steve from Boston, MA, agreed:

                                               “I went to a post office the other day where they were closed for lunch.
                                               So if you’re on your lunch hour and you run to the post office and
                                               they’re closed, it doesn’t really work too well.”



                          This opposition to reducing post office hours is consistent with our initial web-based
                          survey, which found that 74% of the 5,000 respondents would oppose a reduction of
                          hours. The reality, however, is that focus group participants were open to reduced hours
                          on certain days, as long as the hours on other days were also shifted to accommodate
                          citizens who needed the post office to be open early, late, or during lunch. For instance,
                          one suggestion was to allow for some post offices to use a rotating schedule, where it



 © InfoTrends 2014 in collaboration with the USPS OIG                                                                           15
ANALYSIS                 What America Wants and Needs from the Postal Service


                         would be open at 7 am some days, and until 7 pm on others. Tom from Albany, ME said
                         he would not need full service during the extended hours. “Limited service with one
                         employee is fine, as long as the post office stays open longer hours.” Longer hours with
                         limited service could have the potential to spread customer demand across a longer time
                         period, thereby easing Americans’ concerns about wait times during other peak hours.

                         Wait times at local post offices had the highest degree of dissatisfaction, with 23% of
                         focus group participants citing dissatisfaction on the pre-focus group survey. Much of this
                         frustration appeared to stem directly from problems with post office hours. Some
                         participants noted that longer weekday hours could help ease Saturday congestion.

                         Opportunities to Offer New Services
                         Cutting current services is just one approach to returning the Postal Service to financial
                         solvency. Another approach is for the Postal Service to generate additional revenue
                         through new products and services. 9 To gauge Americans’ views on new possible revenue
                         streams, focus group participants were asked to consider mail-related services, as well as
                         services that may be viewed as adjacent to—or completely separate from—traditional
                         services that the Postal Service currently offers.

                         Interest in Access to Governmental and e-Government Services at the Post Office
                         During focus group discussions, we explored whether Americans were open to the idea of
                         accessing governmental services—renewing a driver’s license, buying a hunting or fishing
                         license, paying a parking ticket or excise tax—at post offices across the country. Some
                         participants expressed concern about how additional services might affect post office wait
                         times. To keep the discussion focused on the conceptual value of having these services
                         available, we asked participants to view these as services offered with dedicated staff,
                         separate from existing postal clerks. Allowing other government entities to lease space in
                         post offices could help the Postal Service generate revenue from other government
                         entities, while also adding reasons to visit local post offices. Some people saw the utility in
                         governmental services being offered at their post office, but they did not expect to use it
                         themselves.

                         Participants amenable to the idea of access to governmental services were particularly
                         interested in acquiring hunting and fishing licenses at the post office. Some participants
                         also brought up the idea of having a notary public available.

                         While participants quickly grasped the concept of co-location of postal services within a
                         retailer, some had difficulty envisioning co-location of government services within a post
                         office. Discussions often dissolved into the logistics of the arrangement, whether or not
                         local and federal agencies would support it, and an insistence that it would only increase
                         wait times.

                         9As of January 1, 2006, the Postal Service has been precluded from offering any new, non-postal services that
                         were not previously offered. However, in subsequent postal-reform legislation, Congress may again allow the
                         Postal Service to innovate in new areas. See 39 U.S.C. § 404(e)(2).


© InfoTrends 2014 in collaboration with the USPS OIG                                                                                     16
  ANALYSIS                 What America Wants and Needs from the Postal Service


                           Some views of the Postal Service offering government services at post offices include:

                                            “I like to go to the post office to conduct postal services, I like going to
                                            the DMV to conduct auto-related services, etc… I think when you start
                                            mixing and matching too much, you get to an area where people aren’t
                                            trained enough to know what they want because there is too much.”
                                            —James from Tallahassee, FL

                                            “Tag offices are pretty much dedicated to tags and drivers licenses and
                                            look how much wait time there is there. I don’t think the post office is
                                            going to do a good job at providing that service because of the other
                                            services they provide.” —Susan from Grove, OK


                           Some detractors did not see the benefit (financial or otherwise) to the Postal Service
                           allowing such services to be offered at post offices, and they worried that it would be a
                           time-consuming effort that would not end up being profitable. If the Postal Service is
Before offering new
products and               considering allowing other government entities to offer services at post offices in the
services, it would be      future, it would be beneficial to conduct additional research on the likelihood of citizens
beneficial for the         taking advantage of these services, the cost savings that government agencies could
Postal Service to
                           realize, and the amount of revenue the Postal Service could generate by offering such
conduct additional
research on the            services.
likelihood of citizens
taking advantage of        Electronic Notification of Inbound Mail
additional services.       We also asked focus group participants about their interest in receiving electronic
                           notifications of incoming mail. Similar to package tracking today, this service would be
                           designed to provide a view of what mail was on its way to an American household in
                           advance of its physical arrival. We explained that offering such a service could be
                           beneficial to the Postal Service because it could allow it to save money by reducing
                           residential delivery days. It could also benefit citizens by providing additional
                           transparency about the delivery process. For example, if the Postal Service were to
                           implement such a system and reduce residential mail delivery to three days per week, the
                           electronic notification system could allow a citizen to see that time-sensitive mail had
                           arrived at the local post office. That person could choose to go to the post office to pick up
                           mail at their convenience, or wait to receive it the next day that the Postal Service was
                           delivering to his or her mailbox.

                           While conceptually complex for a focus group discussion (with no supporting visuals or
                           written text), some participants grasped the concept quickly. Timothy from Stevensville,
                           MT had this to say:

                                            “They have preference on their end to save money by eliminating some
                                            delivery days; I can certainly make the effort to pick up. If I have more
                                            of needs-based intake, I’d be more than happy to get that.”




  © InfoTrends 2014 in collaboration with the USPS OIG                                                                      17
ANALYSIS                 What America Wants and Needs from the Postal Service


                         The following quotes represent perspectives from other participants:

                                              “I would be all for that. I’m a fan of things being convenient, and I’m
                                              kind of in the ‘e-generation.’” —Tamika from Kansas City, MO



                                              “To me, I wouldn’t be interested in that, it wouldn’t help me at all. It’s
                                              just one more thing to check, and one more expense the post office is
                                              going to have to incur to filter through all this stuff and all the junk
                                              mail.” —Darren from Los Angeles, CA

                                              “I thought the whole purpose of a restructuring was to not add
                                              problems. Have you not heard about the healthcare website?”
                                              —Susan from Camilla, GA



                         As Susan highlighted above, many of the participants who opposed the Postal Service
                         adding an electronic notification service believed a new venture this large would bog
                         down the Postal Service and be unreliable. Focus group attendees also thought that the
                         proposed service would be costly, duplicative, generate security and privacy concerns,
                         and ultimately be unnecessary. 10 Many focus group participants also felt that the process
                         was too complex. Those who supported the concept tended to self-identify as early
                         adopters of new technology or those who said that they would not personally use the
                         service, but would see value in it for other people. Similar to the earlier takeaway, the
                         Postal Service would benefit from additional research in this area before it pursued such
                         an opportunity.

                         Providing Americans with a Hybrid Mail Approach or a Digital Mailbox
                         Finally, we asked focus group participants about their interest in other digital services
                         from the Postal Service, such as reverse hybrid mail (physical mail that is scanned and
                         delivered electronically to consumers), and a digital mailbox (to receive electronic
                         business communications in a secure, spam-free environment). The focus group
                         moderator described hybrid mail to participants as an extension of the secure electronic
                         notification service, discussed in the previous section, where consumers could view and
                         sort scanned images of the outside of their mail prior to it arriving. At that point, they
                         could select to have the mail discarded; delivered unopened; or opened, scanned, and
                         sent electronically. Alternatively, a purely digital mailbox could be accessible through the
                         same secure login, but all of the content arriving from businesses—bills, statements,
                         privacy notices, and offers—would arrive electronically and never be printed. 11

                         While there was some participant interest, most cited a need for a better understanding of
                         these services and privacy concerns as primary reasons why they would not use either
                         service today. Some participants also felt that offering these services would be unfair to


                         10
                            These focus groups occurred after the Edward Snowden security breach, which may have affected some
                         participants’ trust in government and security.
                         11
                            Both of these services are offered by posts in other countries and exist as private sector startups in the United
                         States.


© InfoTrends 2014 in collaboration with the USPS OIG                                                                                            18
ANALYSIS                 What America Wants and Needs from the Postal Service


                         Americans who lack Internet access at home. Age was a determining factor in likeliness to
                         be interested in these services. Similar to last year’s web-based research, younger
                         demographics were slightly more amenable to digital delivery services.

                                           “In my opinion, it might be more feasible after a few generations die
                                           off…there are just too many people that are computer illiterate to use
                                           this type of service.” —Doug from Buttonwillow, CA


                                           “I’d personally be fine with it, but I don’t think my parents would know
                                           how.” —Simon from Bethel, ME




                         Each of these potential new services would benefit from additional dedicated research to
                         better understand how Americans would view these services. This could include a product
                         demonstration and discussion to educate participants on how the services work, how
                         international posts are offering similar services, and how the services are designed to
                         mitigate risk associated with security and privacy concerns.

                         Consumer-Generated Suggestions for New Services at the Post Office
                         Focus group participants expressed modest interest in accessing new services at post
                         offices. When asked to offer ideas of new services, participants offered few suggestions,
                         such as gift and parcel wrapping stations, copying machines, and self-serve kiosks. None
                         of these ideas received majority support from discussion participants, and suggestions
                         and support varied by location.

                         While most of the participants did not view these services as ones that they would
                         personally use, many acknowledged that certain new services may be helpful to other
                         Americans. For example, Nancy from Bethel, ME, has Internet access at home, but
                         supports the Postal Service expanding its services to offer computer stations with Internet
                         access at post offices.

                                           “I think the post office should have public access computers in the
                                           lobby. You could go in, you could pay your bills online, and [the post
                                           office] could even charge a fee for it. There are people who can’t afford
                                           their own computers and that’s a way to draw people in, and I think it
                                           would be great.”


                         There were also participants who thought that the Postal Service should not be exploring
                         new products and services at all. Overall, participants had difficulty coming up with their
                         own suggestions of potential new products and services for the Postal Service to offer,
                         which may have partially been driven by the limited way in which they viewed the role of
                         the Postal Service.

                         What if the Postal Service Did Not Exist in Five Years
                         To conclude the focus group sessions, we asked for participants’ reactions to an extreme
                         scenario—if the Postal Service ceased to exist in five years. This statement alone was met


© InfoTrends 2014 in collaboration with the USPS OIG                                                                   19
 ANALYSIS                 What America Wants and Needs from the Postal Service


                          with uncomfortable reactions in many of the groups. Participants’ body language seemed
                          to indicate a level of concern with this possibility, as if it was something they had not
                          considered before. The questions that followed this statement were straightforward:

                              •   Would you be negatively affected?

                              •   If so, how significant would that impact be?

                              •   Why?
                          Last year’s web-based research showed that 95% of respondents felt they would be
                          affected. In our focus groups, all but two participants cited that they would be negatively
                          affected if the Postal Service did not exist in five years. One of the two people who said
People seemed to
                          they would not be negatively affected was 92 year old Mary, who visits the post office in
sense that the
Postal Service            Bethel, ME, daily. “I’ll be dead by then,” she said matter-of-factly.
disappearing              For the other 99 focus group participants, most cited moderate to significant impact, with
would be a bad
thing, but they had       a few citing only minimal impact since they already conduct all communications online.
trouble articulating      The degree of impact varied mostly by geography and age, with rural and older Americans
more specifically         citing most often that they would be significantly affected.
how this would
affect them               Some participants suggested that, if this scenario actually played out, private companies
personally.               would step in to offer the same or similar services, albeit at a much higher price. Other
                          (often rural) participants expressed concern that a private enterprise probably would not
                          deliver mail to more remote areas, or do so at unmanageable prices.

                                            “If the federal Postal Service folds, you will have three different
                                            companies trying to fill their shoes. The question is what the cost is
                                            gonna be.” —Howard from Disney, OK



                          People seemed to sense that the Postal Service disappearing would be a bad thing, but
                          they had trouble articulating more specifically how this would affect them personally.
                          There was a consensus that the Postal Service must carry on; however, the comments
                          rarely provided for a concrete understanding of the specific ramifications to individuals’
                          lives if it did not. This is likely because, to most of the focus group participants, it seemed
                          to be an unfathomable occurrence. In taking the discussion this far, however, we were
                          able to get to the bottom of absolute needs versus wants. In truth, what Americans need
                          from the Postal Service is much less than they want—and they are willing to make
                          tradeoffs.

                          Making Tradeoffs
                          At the end of each two-hour focus group—having just discussed the extreme scenario of
                          an America with no Postal Service—we asked participants to provide us with a brief
                          statement regarding what services they would be willing to give up to retain other




 © InfoTrends 2014 in collaboration with the USPS OIG                                                                       20
 ANALYSIS                 What America Wants and Needs from the Postal Service


                          services. Essentially, this gave participants the opportunity to reiterate which services
                          were most and least important to them. Here are some of the highlights:

                                           “I’d rather the Postal Service cut back on their days rather than
                                           charging any extra fees or anything to our neighborhood.”
                                            —Andre from Post Falls, ID


                                            “I’d rather see the Postal Service have cluster mailboxes than increase
                                            postal fees for the stamps.” —Miranda from Kansas City, MO



                                            “I would rather the Post Office reduce the number of days that are open
                                            down to 3 so that we can keep it around a long time and I expect the
                                            [Postal Service] to keep up the great service that they give.”
                                            —Mary from Tallahassee, FL

                                           “I would rather see a reduction in the days of delivery than losing my
                                           Post Office.” —Allan from Bethel, ME



                                           “I would like my [post office] to stay mainly the same, keep its services
                                           and everything…I’d like them to have new products to make money on
                                           other services. That would be wonderful. They do need some ways to
                                           make money to stay afloat.” —Julia from McKittrick, CA

                                           “I think the Postal Service would be better served if they reduce it down
                                           to five days a week.” —Kareem Ali from Tallahassee, FL
In truth, what
Americans need
from the Postal
Service is much                            “I would rather the Postal Service reduce the number of days it delivers
                                           to the house than continue to need government funding from the
less than they
                                           taxpayer to stay out of the red.” —John from Kansas City, MO
want—and they are
willing to make
tradeoffs.                                 “I would rather the Postal Service do fewer days than charge more.”
                                           —Edward from Spokane, WA



                                           “I would rather the Post Office end Saturday delivery on mail than cut
                                           delivery of mail to my own house.” —Bryant from Sylvester, GA



                                           “The Post Office is very efficient and very reliable. They need to keep
                                           those things and eliminate everything else to cut costs; and they should
                                           raise prices and try to run it like a business.”
                                           —Joe from Lee’s Summit, MO

                                           “I’m quite satisfied with the Postal Service as it is.”
                                           —Mary from Bethel, ME




 © InfoTrends 2014 in collaboration with the USPS OIG                                                                  21
ANALYSIS                 What America Wants and Needs from the Postal Service


                                          “I would rather the Post Office stay efficient and reliable with a few
                                          services, as opposed to expanding and not working as well as they do
                                          with a few things.” —Cate from Kansas City, MO


                                          “I’d rather the Postal Service lose delivery days than lose my Postal
                                          Service altogether.” —Winston from Camilla, GA



                                          “I’d rather the post service stay the way it is. If it’s a business though it
                                          should be able to regulate its price. If the government is going to set
                                          that stuff, the government should help fund it.”
                                          —Vivian from Derby, CA

                                          “I would rather the Postal Service charge a little bit more for a cluster
                                          mailbox for the security, rather than shut down altogether.”
                                          —Dustin from Grove, OK


                                          “I would rather the Post Office go to five days instead of doing email
                                          notification.” –Tangela, Tallahassee, FL



                                          “I would rather the Postal Service cut back on delivery days than see my
                                          local post office shut down.” —Katie from Spokane, WA



                                          “I would rather see the Postal Service spend money on actual services
                                          rendered than…superfluous advertisement.
                                          —Jonathan from Stevensville, MT


                                          “I would rather…lose a day of service rather than have postage go up, or
                                          have other services like ticket paying, registration, or fishing or hunting
                                          licenses be offered for a nominal fee.” —Daniel from Stevensville, MT


                                          “I would rather the Post Office find smarter ways to do things than limit
                                          service; and I expect the Postal Service to be here for my grandchildren.”
                                          —Mike from Tallahassee, FL


                                          “I’d rather see the Post Office do like cluster mailboxes instead of
                                          individual delivery to homes in urban areas.”
                                          —Bill from Kansas City, MO


                                          “I’d rather the Postal Service end Saturday delivery for letters than lose
                                          my curbside delivery for a cluster box.” —Loys from Cotton, GA




© InfoTrends 2014 in collaboration with the USPS OIG                                                                      22
ANALYSIS                 What America Wants and Needs from the Postal Service



                         Conclusion
                         The Postal Service, and the way that it has helped shaped America’s communications
                         infrastructure, tends to continue to hold a revered place in Americans’ hearts. Despite the
                         personal interest Americans seem to have in the Postal Service's survival, it must adapt its
                         business model to meet the realities of America’s changing communications needs. Over
                         the course of ten, two-hour, in-person discussions with 101 Americans across the country,
                         we witnessed a shift in mindset from a demand for services to remain the same to a
                         willingness to adapt and compromise to preserve the Postal Service for the future.

                         Our research indicates that Americans are more comfortable with a focused Postal
                         Service that offers reduced service levels in areas such as number of delivery days and
                         curbside/door slot delivery than adopting new products and services to generate
                         additional revenue. In many cases, participants found it difficult to visualize potential
                         new services, so additional, more targeted research in these areas would be needed before
                         any conclusions could be drawn.

                         While change may not be comfortable or convenient, many focus group participants
                         recognized that the Postal Service faces tradeoffs, given the realities of its financial
                         situation. Americans may want to retain existing service levels, but their actual needs for
                         the Postal Service are more finite than the services they simply want. Ensuring citizens
                         understand how the Postal Service is funded is essential to their ability to provide
                         informed insights into these tradeoffs.




                         This material is prepared specifically for clients of InfoTrends, Inc. The opinions expressed represent our interpretation
                         and analysis of information generally available to the public or released by responsible individuals in the subject
                         companies. We believe that the sources of information on which our material is based are reliable and we have applied
                         our best professional judgment to the data obtained.




© InfoTrends 2014 in collaboration with the USPS OIG                                                                                                  23
RARC-WP-14-009                                                        What America Wants and Needs from the Postal Service




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                          February 18, 2014
